VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Department of 

                                                                    Veteran Affairs 

                                                                           Review of 

                                                                     Acquisitions Supporting 

                                                                    the Veteran Employment 

                                                                         Services Office 





                                                                                         June 25, 2013
                                                                                          13-00644-231

             ACRONYMS AND ABBREVIATIONS

FAR          Federal Acquisition Regulation
HR           Human Resources
HR&A         Office of Human Resources and Administration
IA           Interagency Agreement
OAO          Office of Acquisition Operations
OIG          Office of Inspector General
OMB          Office of Management and Budget
OPM          Office of Personnel Management
SMG          Strategic Management Group
VA           Veterans Affairs
VBA          Veterans Benefits Administration
VESO         Veteran Employment Services Office




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           E-Mail: vaoighotline@va.gov

                      (On the Web: www.va.gov/oig/hotline)

                  Report Highlights: Review of VA’s
                  Acquisitions Supporting the Veteran
                  Employment Services Office

Why We Did This Review                          did not require VESO to conduct a thorough
                                                analysis to justify the need for the services.
We determined whether the Office of
Human Resources and Administration              We estimated at least $13.1 million will be
(HR&A) had adequate controls to ensure its      spent through FY 2015 on excess call center
Veteran Employment Services Office              capacity unless corrective action is taken.
(VESO) acquisitions were appropriate and        These funds, and the estimated $4.4 million
justified. VESO’s mission is to increase        HR&A will spend on HR support services,
VA’s veteran employment. Since VESO’s           could be better used to provide employment
spending on its acquisitions represents an      services to veterans with greater efficiency
estimated      86     percent      of     its   and accountability. Without improving its
FY 2012 spending and FY 2013 budget, the        controls, HR&A has little assurance that
need for effective and recurring oversight is   VESO’s      acquisitions    are    justified,
critical.                                       appropriately targeted, and will have the
                                                desired impact on veteran employment.
What We Found
                                                What We Recommended
We found that HR&A acquired excess
services to support VESO operations when it     We recommended HR&A improve its
expanded an interagency agreement (IA)          acquisition practices by assessing program
with the Office of Personnel Management         needs against VA’s capacities and
(OPM) to provide two employment call            capabilities and establishing program
centers operating 24 hours a day, 7 days a      metrics.
week. These call centers had call volumes
so low during a 13-month period that each       Agency Comments
call center employee handled an average of
2.4 calls per day.                              The Acting Assistant Secretary for Human
                                                Resources and Administration concurred
HR&A funded its IA with OPM to develop          with our findings and recommendations and
and maintain VESO’s veteran employment          believes they are likely to spend less than
Web site, duplicating key components of         the projected $4.4 million associated with
existing HR&A and Veterans Benefits             HR support services. HR&A provided an
Administration employment Web sites. We         appropriate action plan, which we will
also found that VESO, with approval from        follow up on the implementation of
HR&A, awarded a $4.4 million 1-year             corrective actions.
contract for human resources support
services that duplicated VESO’s own
internal capabilities and contracted for
certain inherently governmental functions.               LINDA A. HALLIDAY
These acquisitions occurred because HR&A               Assistant Inspector General
                                                       for Audits and Evaluations


                                                                                             i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 
Results and Recommendations ........................................................................................................2
 
    Finding                HR&A Needs To Strengthen Controls Over Acquiring Support Services .........2
 
                           Recommendations ...............................................................................................8
 
Appendix A                 Background .......................................................................................................10
 
Appendix B                 Scope and Methodology....................................................................................11
 
Appendix C                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments .....................................................................................................13
 
Appendix D                 Acting Assistant Secretary for Human Resources and Administration 

                           Comments .........................................................................................................14
 
Appendix E                 Office of Inspector General Contact and Staff Acknowledgments ...................20
 
Appendix F                 Report Distribution ...........................................................................................21
 




                                                                                                                                                 ii
                                                       Review of VA’s Acquisitions Supporting VESO



                    INTRODUCTION
Objective           We conducted this review to determine whether the Office of Human
                    Resources and Administration (HR&A) had adequate controls to ensure that
                    services acquired to support the Veteran Employment Services Office
                    (VESO) in FYs 2012 and 2013 were appropriate and justified. We initiated
                    our review in response to a complaint made through the VA Office of
                    Inspector General (OIG) Hotline in October 2012. The complaint alleged
                    VESO acquired unnecessary services to support VESO operations.

VESO                As part of the Secretary’s initiative to transform VA into a 21st century
Operations          organization, VA’s Human Capital Investment Plan was branded
                    ADVANCE and launched in FY 2010 as an agency-wide effort to build and
                    sustain VA’s succession and workforce planning. HR&A manages the
                    programs funded through ADVANCE, including VESO. Formerly the
                    Veteran Employment Coordination Service, VESO was established in
                    July 2011 with a new program mission to increase VA’s veteran employment
                    by recruiting, retaining, and reintegrating qualified veterans. VA’s goal is to
                    increase VA’s veteran employment to 40 percent by FY 2014.

VESO                VESO acquisitions represent a significant portion of VESO’s budget. VESO
Acquisitions        operations are supplemented through an interagency agreement (IA) with the
                    Office of Personnel Management (OPM). The IA was initiated in
                    September 2010 and has 4 option years with a total potential value of
                    $150 million. Under this IA, OPM has contracted Serco Services, Inc.
                    (Serco) to provide veterans employment programs, including two veteran
                    employment call centers and design of a veteran employment Web site. In
                    FY 2012, VESO spent an estimated $44.2 million, which included about
                    $39.9 million for acquisition costs. In FY 2013, VESO is budgeted to spend
                    about $35 million, which includes about $27.9 million on acquisitions.

                    VESO’s human resources (HR) services unit is augmented through a
                    $4.4 million VESO contract awarded in FY 2012 to R3 Government
                    Solutions (R3). IA performance and costs are monitored by a VESO
                    appointed initiative coordinator.    HR&A’s Strategic Management
                    Group (SMG) coordinates and provides direction to initiative coordinators.
                    The R3 HR support services contract is monitored by a VA contracting
                    officer’s representative.

Additional          The following appendixes provide additional information.
Information
                       Appendix A provides pertinent background information.
                       Appendix B provides details on our scope and methodology.




VA Office of Inspector General                                                                   1
                                                       Review of VA’s Acquisitions Supporting VESO



                    RESULTS AND RECOMMENDATIONS
Finding             HR&A Needs to Strengthen Controls Over Acquiring
                    Support Services

                    We substantiated the allegation that HR&A acquired excess services to
                    support VESO operations. Specifically, HR&A expanded the terms of
                    VESO’s IA with OPM in October 2012 to provide VESO with two veteran
                    employment call centers operating 24 hours a day, 7 days a week (24/7).
                    These call centers had call volumes so low during a 13-month period that call
                    center employees each handled an average of 2.4 calls per day. HR&A also
                    funded the IA to develop and maintain a veteran employment Web site for
                    VESO, which duplicated key components of existing HR&A and Veterans
                    Benefits Administration (VBA) veteran employment Web sites. We found
                    that VESO, with approval from HR&A, awarded a $4.4 million 1-year
                    contract to acquire HR support services that duplicated VESO’s own internal
                    HR capabilities and contracted for certain inherently governmental functions.

                    These costly and excess acquisitions occurred because HR&A did not
                    require VESO to conduct a thorough analysis to justify the need for the
                    acquired support services. As a result, we estimate HR&A will spend at least
                    $13.1 million during FYs 2013 through 2015 on excess call center capacity
                    unless action is taken to align call center capacity with veteran use and
                    demand. These funds, along with the estimated $4.4 million that will be
                    spent on the HR support services contract in FY 2013, could be better used
                    to provide veteran employment services with greater efficiency and
                    accountability.

Veteran Call        We found that VESO’s two veteran employment call centers had call
Volume              volumes so low from December 2011 through December 2012 that call
Over-Stated by
More Than
                    center employees each handled an average of 2.4 calls per day. HR&A’s IA
1,000 Percent       with OPM contracted Serco to provide VESO with these two veteran
                    employment call centers. The two Serco employment call centers are located
                    in Dumfries, VA, and Ebensburg, PA, and began operation in October 2011.

                    In October 2012, VESO expanded the hours of operation for these call
                    centers to 24/7 based on contractor projections that the call centers would
                    support an average of 2,189 calls per day. These call centers are staffed with
                    more than 70 contract staff. VESO paid $2.2 million from October through
                    December 2012 to operate both call centers.




VA Office of Inspector General                                                                  2
                                                                      Review of VA’s Acquisitions Supporting VESO


                    VESO expanded the call centers’ hours of operation despite the fact that
                    while average daily call volume increased from May to August 2012, calls
                    peaked in June 2012 with an average of 339 calls per day. According to data
                    provided by VESO, the call centers supported a total of 71,423 inbound and
                    outbound calls from the beginning of December 2011 through
                    December 2012, or an average of 180 calls per day. VESO’s average daily
                    call volume projections significantly overstated actual average daily calls by
                    more than 1,000 percent or 1 call made or received for every 12 calls
                    projected by VESO. Figure 1 details the call centers’ average inbound and
                    outbound calls per day as reported by VESO from the beginning of
                    December 2011 through December 2012.

Figure 1                                     Average Daily Call Volume by Month
                                           (December 2011 Through December 2012)

                      13 Month Avg                     180
                           Dec '12         105
                           Nov '12             126
                           Oct '12               147
                           Sep '12                   172
                           Aug '12                                   285
                            Jul '12                            248
                           Jun '12                                          339
                           May '12                            238
                           Apr '12                   174
                           Mar '12               156
                           Feb '12               157
                           Jan '12         110
                           Dec '11        84
                                      0    50           100           150         200   250   300    350     400

                      Source: OIG analysis of VESO-provided data

                    Our analysis of VESO-provided data determined inbound and outbound call
                    volume was so low that individual call center staff handled an average
                    2.4 calls a day.




VA Office of Inspector General                                                                                     3
                                                                                 Review of VA’s Acquisitions Supporting VESO


                    Figure 2 provides average daily calls per month handled by each Serco call
                    center employee as reported by VESO from December 2011 through
                    December 2012.

Figure 2                                    Average Daily Call Volume Per Employee By Month
                                                (December 2011 Through December 2012)

                      13 Month Avg                                 2.4
                           Dec '12                  1.4
                           Nov '12                     1.7
                           Oct '12                         1.9
                           Sep '12                               2.3
                           Aug '12                                               3.8
                            Jul '12                                        3.3
                           Jun '12                                                      4.5
                           May '12                                       3.1
                           Apr '12                               2.3
                           Mar '12                           2.0
                           Feb '12                           2.1
                           Jan '12                   1.4
                           Dec '11             1.1

                                      0.0     0.5          1.0           1.5      2.0         2.5   3.0   3.5   4.0   4.5   5.0

                      Source: OIG analysis of VESO-provided data

Reasons for         The expansion of call center services occurred because HR&A did not
Expansion of        require VESO to conduct a thorough analysis to justify the need for
Call Center
Services
                    expanding Serco’s call center services. VESO also did not have performance
                    metrics to assess veterans’ use of the call centers. As a result, Serco’s
                    performance on providing services, such as call center coaching to veterans,
                    was unmonitored. The U.S. Government Accountability Office’s Standards
                    for Internal Control in the Federal Government states that management’s
                    philosophy and operating style determines the degree of risk the agency is
                    willing to take and its philosophy towards performance-based management.
                    The establishment and review of performance measures provides
                    management the control to compare actual performance with planned or
                    expected results to identify significant differences.

Inadequate          HR&A did not require VESO to analyze veteran use of and demand for call
Analysis of         center services before the terms of the IA were changed to expand services to
Available Data
                    provide 24/7 call centers. VESO did not routinely request or receive
                    complete call volume data or data on the length of calls from Serco. In fact,
                    VESO had to specifically request the data we used for this report because it
                    was not routinely provided to them. Without adequate call volume data to
                    analyze, VESO’s decision to expand call center operations lacked a sufficient
                    business case to justify the expansion. Analysis of call center volume data
                    could have positioned VESO to take timely action to realign its call center

VA Office of Inspector General                                                                                                    4
                                                       Review of VA’s Acquisitions Supporting VESO


                    operations to better reflect actual veteran demand for services and to ensure a
                    more effective use of funds.

Lack of             VESO did not have a quality assurance surveillance plan to monitor
Surveillance        contractor performance since FY 2010. According to the Office of
Plan to Monitor
Serco
                    Management and Budget’s (OMB) Interagency Acquisitions, agencies
Performance         receiving services through an IA should monitor contractor performance
                    against a quality assurance surveillance plan.       A quality assurance
                    surveillance plan would allow VESO to determine whether the quality of
                    Serco’s services conform to contract requirements. To remedy its lack of a
                    surveillance plan, VESO recently requested that Serco develop an oversight
                    plan, which was submitted to VESO in draft form in April 2013. VESO’s
                    lack of a plan to monitor call center workload and performance resulted in
                    VESO paying for services that were significantly underutilized with no
                    known effect on veterans’ employment outcomes.

Lack of             VESO did not establish metrics or require Serco to routinely report data that
Performance         would allow it to measure call center performance. Data related to call wait
Metrics
                    times, hang-ups, and the accuracy of information provided to veteran callers
                    could be used to measure call center performance and determine to what
                    extent call center services affect veteran employment outcomes.

Results of          Based on available data, VESO’s call center capacity is excessive and call
Expansion of        center operations are overstaffed by at least 50 percent. As a result, we
Call Center
Services
                    estimate at least $1.1 million of the $2.2 million HR&A spends quarterly to
                    operate VESO’s call centers is unnecessary and could be better used to
                    provide veteran employment services with greater efficiency and
                    accountability. This equates to about $13.1 million in unnecessary spending
                    on call centers for FYs 2013 through 2015 if HR&A takes no corrective
                    action to align call center capacity with veteran demand for services.

Duplicative         We found HR&A funded the IA with OPM for Serco to develop and
Services of VA      maintain VESO’s VA for VETS veteran employment Web site, which
Web Sites
                    duplicated key components of existing HR&A and VBA veteran
                    employment Web sites. According to SMG’s Program Management Office
                    Operations Guide, its program prioritization process ensures there is no
                    duplication of effort across ADVANCE-funded programs. However,
                    VESO’s VA for VETS Web site included VA job listings, resume-writing
                    assistance, and a military skills translator. These services duplicated key
                    components of HR&A’s ADVANCE-funded MyCareer@VA Web site.
                    HR&A authorized ADVANCE-funding for MyCareer@VA and the VA for
                    VETS Web sites, which were launched less than one month apart in October
                    and November 2011, respectively.

                    VESO’s VA for VETS Web site also duplicates components of VBA’s
                    VetSuccess Web site by offering VA jobs postings, resume-writing
                    assistance, and a military skills translator. Federal Acquisition Regulation

VA Office of Inspector General                                                                   5
                                                       Review of VA’s Acquisitions Supporting VESO


                    (FAR) Part 7.105 requires that agencies, as part of the acquisition planning
                    process, consider feasible acquisition alternatives including any related
                    in-house efforts. Prior to a modification to the IA’s funding level in
                    April 2011, a VA reviewer cautioned against duplicating VBA’s outreach
                    programs.

Reasons for         VESO’s acquisition planning process was inadequate. An effective planning
Web Site            process would have considered whether VESO could add features to other
Duplications
                    existing VA Web sites. VESO could not provide any documentation that
                    developing additional capabilities onto existing VA veteran employment
                    Web sites was considered before HR&A funded this IA with OPM.

Results of          VESO missed an opportunity to use existing VA resources to provide
Web Site            employment services to veterans, while better managing funds to meet the
Duplications
                    needs of our unemployed veterans. We could not determine the amount of
                    funds that could be better used because of a modification to the IA. SMG
                    approved a modification in October 2012 to the IA that allowed Serco to
                    bundle the costs of several technology deliverables such as a case
                    management system, the VA for Vets Web site, and a reporting platform into
                    one firm-fixed-price contract price of about $3.8 million.

R3 Contract         The terms of VESO’s HR support services contract with R3 duplicated
Duplicated          VESO’s internal HR capacity and the contract’s statement of work shows the
Internal
Capacities and
                    contractor is to support VESO to process classification actions. Although
Some Work           there is no easy definition of inherently governmental functions that can be
Requirements        applied to every circumstance, these types of support services are described
are Inherently      in FAR Subpart 7.5 in a list of examples of functions considered inherently
Governmental        governmental or that will be treated as such. The examples in FAR
Functions
                    Subpart 7.5 include the selection and non-selection of individuals for Federal
                    Government employment, including the interviewing of individuals for
                    employment and the approval of position descriptions and performance
                    standards for Federal employees. The statement of work states the contractor
                    will provide classification, staffing, and consulting services to assist
                    VA/VESO in the classification of positions; the assessment and referral of
                    veteran candidates for multiple occupations, locations, and grade levels; and
                    the staffing support needed to assist VESO in the execution of veteran hiring
                    events.

                    OMB’s Performance of Inherently Governmental and Critical Functions
                    (September 2011) requires agencies, as part of acquisition planning, to
                    include in their contract files evidence that analysis was conducted to
                    establish, at a minimum, that the functions to be contracted are not inherently
                    governmental functions. This analysis should include an assessment of the
                    function to be contracted against OMB’s listing of inherently governmental
                    functions. If the function is not listed by OMB as inherently governmental,
                    further tests should be conducted to determine if the function is inherently
                    governmental or closely associated with inherently governmental functions.

VA Office of Inspector General                                                                   6
                                                      Review of VA’s Acquisitions Supporting VESO


                    Given the close alignment of VESO’s mission and these work requirements,
                    we found that HR&A did not have adequate controls during acquisition
                    planning, such as conducting required assessments to identify inherently
                    governmental functions. This level of control must be carried out during
                    acquisition planning when agencies rely on contractors to perform functions
                    such as those described in the R3 contract statement of work.

                    In July 2012, HR&A approved five full-time equivalent staff for VESO’s HR
                    staffing unit shortly before the R3 contract was awarded. These full-time
                    equivalent staff had an estimated annual salary and benefit cost of nearly
                    $570,000. FAR Part 7.105 requires that agencies consider feasible
                    acquisition alternatives including any related in-house efforts before
                    awarding contracts or IAs. A VESO employee told us the former VESO
                    Director was informed prior to award that the terms of the R3 contract would
                    substantially duplicate VESO’s own HR capacity. We were not provided
                    evidence that VESO’s HR support services needs were assessed against
                    HR&A’s and VESO’s internal HR capacities before the R3 contract was
                    awarded.

                    Shortly after we started this review, VESO initiated action to terminate its
                    contract with R3 after paying $1.4 million through March 2013. In
                    June 2013 termination costs were being negotiated with R3. Based upon
                    FAR guidance for contracts terminated at the Government’s convenience,
                    termination costs could potentially equal the remaining value of this
                    firm-fixed-price contract, which is $3 million. In total, we estimate VESO
                    may potentially spend up to $4.4 million on the R3 contract. We are not
                    offering a recommendation to terminate the contract because VA is
                    proceeding with that action. However, we are offering a recommendation to
                    develop requirements for the planning of future support service contracts to
                    test and assess functions to be contracted to determine if the function is
                    inherently governmental and require the statement of work to clearly outline
                    what the contractor may or may not do, including details regarding who has
                    the authority to make decisions.

Conclusion          Given that VESO’s spending on its acquisitions represents an estimated
                    86 percent of its FY 2012 spending and FY 2013 budget, the need for
                    effective and recurring oversight is critical to ensuring VESO meets its
                    mission. By strengthening SMG’s controls over acquisitions, HR&A can
                    better leverage its internal capacity and acquisitions to support VESO’s
                    mission. Further, we concluded that given the lack of details supporting the
                    R3 contract, information is blurred regarding what should be outsourced and
                    what is inherently governmental. The statement of work lacks specific
                    details to identify how the work requirements are different from inherently
                    governmental functions, and the controls, such as tests and assessments
                    recommended in OMB guidance, were not used during acquisition planning.



VA Office of Inspector General                                                                 7
                                                        Review of VA’s Acquisitions Supporting VESO


                    Recommendations

                    1.	 We recommended the Acting Assistant Secretary for Human Resources
                        and Administration improve the development and management of
                        ADVANCE-funded acquisitions by strengthening the Strategic
                        Management Group’s process to fully assess program offices’
                        procurement requests against VA’s existing internal capacities.
                    2.	 We recommended the Acting Assistant Secretary for Human Resources
                        and Administration take immediate action to assess veteran demand for
                        call center services and to modify the terms of its interagency agreement
                        with the Office of Personnel Management to reflect an appropriate level
                        of call center operations and related costs, including staffing resources.
                    3.	 We recommended the Acting Assistant Secretary for Human Resources
                        and Administration modify the Veteran Employment Services Office’s
                        interagency agreement with the Office of Personnel Management to
                        require routine data reports on call centers’ performance that include call
                        volume, length of calls, blocked calls, wait times, and the overall
                        accuracy of information provided to callers.
                    4.    We recommended the Acting Assistant Secretary for Human Resources
                         and Administration develop a process to independently assess the
                         performance of the Veteran Employment Services Office’s employment
                         call centers by establishing metrics such as call volume, call wait times,
                         hang-ups, and accuracy of information.
                    5.	 We recommended the Acting Assistant Secretary for Human Resources
                        and Administration develop policy that prohibits the approval of
                        modifications to interagency agreement terms that combine the costs and
                        terms of distinct deliverables into one deliverable.
                    6.	 We recommended the Acting Assistant Secretary for Human Resources
                        and Administration develop requirements to test and assess functions to
                        be contracted to determine if these functions are inherently governmental
                        as part of the acquisition planning process for all future contracts
                        awarded to support the Veteran Employment Services Office’s
                        operations and initiatives.

Management          The Acting Assistant Secretary for Human Resources and Administration
Comments            concurred with all six of our recommendations. The Acting Assistant
                    Secretary advised us that VESO has started the process of establishing
                    metrics and performance standards to better measure program quality and
                    outcomes. VESO will provide increased oversight for call center operations
                    from now through the end of the current period of performance. VESO will
                    not use the interagency agreement format for its next contract. The Acting
                    Assistant Secretary also reported VA will establish a change control process
                    to require a detailed review of any changes to contract language that may
                    affect the cost, schedule, or ability to monitor a contract. Also, VA is taking

VA Office of Inspector General                                                                   8
                                                      Review of VA’s Acquisitions Supporting VESO


                    steps to ensure services acquired are not inherently governmental functions.
                    In addition, the Acting Assistant Secretary responded that HR&A is likely to
                    spend less than the projected $4.4 million associated with the contract for
                    human resources support services.

OIG Response        HR&A’s planned actions are responsive. We will monitor its progress and
                    follow up on its implementation until all proposed actions are
                    completed. Appendix D provides the full text of the Acting Assistant
                    Secretary’s comments.




VA Office of Inspector General                                                                 9
                                                       Review of VA’s Acquisitions Supporting VESO


Appendix A          Background

Veteran             VESO is solely dedicated to attract, recruit, hire, and retain veterans. To that
Employment          end, VESO’s major initiatives include its veteran employment call centers
Activities
                    and the VA for Vets employment Web site. VESO also operates a veteran
                    mentoring program designed to assist veterans with their transition into VA
                    jobs.
HR&A                HR&A established SMG to provide oversight, development, and
ADVANCE-            performance monitoring of ADVANCE-funded program initiatives. SMG
Funded
Acquisition
                    prioritizes the use of ADVANCE funds, including procurements and
Practices           full-time equivalent staff, and monitors ADVANCE expenditures. VA’s
                    Office of Acquisition Operations (OAO) reviews the proposals for
                    ADVANCE-funded IAs and contracts and must approve each procurement
                    method. OAO must obtain a legal review for proposed ADVANCE-funded
                    procurements, depending on the purpose and value of each procurement,
                    from VA’s Office of General Counsel. SMG and OAO are involved in the
                    negotiations and modifications of IAs.
Applicable          The FAR and VA’s acquisition policy are applicable criteria related to the
Criteria            development and monitoring of IAs and direct contracts. FAR Part 7 details
                    steps agencies should take as part of acquisition planning. The purpose of
                    acquisition planning is to ensure the Government meets its needs in the most
                    effective, economical, and timely manner. Agencies must specify how an
                    acquisition can help an agency accomplish its mission more efficiently and
                    effectively. Agencies are also required to consider feasible acquisition
                    alternatives, including any related in-house efforts.
                    	 The Government Accountability Office’s Standards for Internal Control
                       in the Federal Government (November 1999) defines the minimum level
                       of quality acceptable for internal control in Government and provides the
                       basis against which internal control is to be evaluated.
                    	 OMB’s Guidelines for Assessing the Acquisition Function (May 2008)
                       provides agencies with guidance on internal control requirements for
                       acquisition functions.     Furthermore, these guidelines also require
                       agencies to integrate acquisition internal control assessments into an
                       agency’s existing control functions.
                    	 OMB’s Interagency Acquisitions (June 2008) details best practices and
                       requirements related to IAs effective October 2008. This policy includes
                       requirements such as monitoring contractor performance.
                    	 OMB’s Performance of Inherently Governmental and Critical Functions
                       (September 2011) establishes policy for the Executive Branch on
                       addressing the performance of inherently governmental functions and
                       critical functions. The policy is intended to assist agencies in ensuring
                       that only Federal employees perform work that is inherently
                       governmental or otherwise needs to be reserved to the public sector.

VA Office of Inspector General                                                                   10
                                                       Review of VA’s Acquisitions Supporting VESO


Appendix B          Scope and Methodology

Scope               We conducted our review work from December 2012 to May 2013. The
                    scope of our review included VESO’s IA with OPM and VESO’s HR
                    support services contract with R3 to determine if these acquisitions were
                    appropriate and justified. The scope of our review included actions and
                    spending related to these acquisitions from FY 2012 through the second
                    quarter of FY 2013.

Methodology         We reviewed and analyzed SMG and VESO policies, including strategic
                    planning documentation, performance measures, budget data, and personnel
                    data. We assessed contractor duties and tasks to identify duplication of effort
                    and excess capacity. We interviewed officials and staff from the Office of
                    Human Resources and Management, VESO, SMG, OAO, and OPM to
                    obtain information on VESO’s internal capacity and contractor support. We
                    interviewed VA officials about ADVANCE-funded initiatives and VESO’s
                    budget. We also interviewed VBA officials for information about its veteran
                    employment initiatives.

                    To assess the capacity of VESO’s workforce, we examined data from VA’s
                    Personnel and Accounting Integrated Data system and verified the data with
                    VESO program managers. To assess the capabilities of VESO’s workforce,
                    we analyzed position descriptions and interviewed VESO personnel. Our
                    estimate of the annual value of VESO’s HR staffing unit’s full-time
                    equivalent staff is based on 2008 OMB guidance that annual benefits make
                    up an additional 36.25 percent of federal employees’ yearly base salary.

                    To assess the effectiveness of VA’s controls over VESO-related
                    procurements, we examined HR&A’s and OAO’s acquisition oversight
                    process and controls. We contacted VA’s OAO and requested a list of IAs
                    made on behalf of VESO during our scope of review. We used this list to
                    identify relevant VESO IAs and contracts, which we reviewed in VA’s
                    Electronic Contract Management System. We reviewed the official
                    electronic contract files in this system to determine if the files contained key
                    documentation required by FAR and VA policy to support VESO’s IA with
                    OPM and its HR support services contract with R3.

                    To calculate average daily call volume for VESO’s two call centers by
                    month, we divided total inbound and outbound calls by the number of days
                    per month for December 2011 through December 2012. Our monthly
                    average calls per day included all days for each month because the call
                    volume data we received from VESO and used in our analysis included
                    24/7 call volume.

                    To calculate daily call center employee workload by month, we summed the
                    total inbound and outbound calls by month, and then divided each monthly
                    total by the number of days in that month. We then divided this average

VA Office of Inspector General                                                                   11
                                                      Review of VA’s Acquisitions Supporting VESO


                    daily call volume by the number of call center employees for that given
                    month. We did these calculations for a 13-month period, December 2011
                    through December 2012, using VESO-provided data.

Data Reliability    To ensure that OAO’s list of VESO-related acquisitions was complete, we
                    conducted an independent search of VA’s Electronic Contract Management
                    System and discussed the list’s accuracy with appropriate VA personnel.
                    Based on this evaluation, we determined that OAO’s data were sufficiently
                    reliable for the purposes of our review. To assess the accuracy of reports
                    from the Personnel and Accounting Integrated Data system on VESO’s
                    reported workforce size and selected employee salaries, we examined these
                    data reports for missing fields and data and discussed any discrepancies with
                    a VESO program manager and a Human Resources Information Service
                    official. Based on this assessment, we determined the data from the
                    Personnel and Accounting Integrated Data system to be sufficient for
                    purposes of our review. VESO provided Serco call center data, which we
                    determined was sufficiently reliable for the purposes of our review.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           review objective. We conducted this review under the Quality Standards for
                    Inspection and Evaluation, issued by the Council of the Inspectors General
                    on Integrity and Efficiency in January 2012. Those standards require that the
                    evidence supporting our findings, conclusions, and recommendations should
                    be sufficient, competent, and relevant and should lead a reasonable person to
                    sustain the findings, conclusions, and recommendations. We believe the
                    evidence obtained provides a reasonable basis for our findings, conclusions,
                    and recommendations based on our review objective.




VA Office of Inspector General                                                                12
                                                            Review of VA’s Acquisitions Supporting VESO


Appendix C          Potential Monetary Benefits in Accordance With
                    Inspector General Act Amendments



                                                                             Better Use        Questioned
      Recommendation             Explanation of Benefits
                                                                              of Funds 	         Costs


              1	                 Improve SMG’s management                    $4.4 million            $0
                                 of         ADVANCE-funded                     (See Note 1)
                                 acquisitions by fully assessing
                                 procurement requests against
                                 VA’s       existing     internal
                                 capacities and capabilities.
                                 Assess veteran demand for
              2                  call center services and                   $13.1 million            $0
                                 modify the terms of VESO’s                    (See Note 2)
                                 interagency agreement with
                                 OPM      to    reflect  more
                                 appropriate     call   center
                                 operations and costs.

                                                                  Total $17.5 million                $0




                    Note 1: The $4.4 million represents the total contract value, which includes contract
                    payments made ($1.4 million) and potential termination fees ($3 million). The Acting
                    Assistant Secretary for Human Resources and Administration responded that HR&A is
                    likely to spend less than the projected $4.4 million associated with this acquisition

                    Note 2: The $13.1 million was calculated by multiplying the $1.1 million in first quarter
                    FY 2013 costs associated with the overstaffing of call centers by the remaining 11 quarters
                    for FYs 2013 through 2015.




VA Office of Inspector General                                                                              13
                                                                           Review of VA’s Acquisitions Supporting VESO


Appendix D                Acting Assistant Secretary for Human Resources and
                          Administration Comments



                  Department of                                              Memorandum
                  Veterans Affairs
          Date:          June 17, 2013 

         From:           Acting Assistant Secretary for Human Resources and Administration (006) 

          Subj:          Draft Report, Review of Acquisitions Supporting the Veteran Employment Services
                         Office Project Number 2013‐00644‐R1‐0036 

           To:           Assistant Inspector General for Audits and Evaluations (52) 


                  1.	    The draft  report  on the review of  acquisitions  supporting the  Veteran  Employment 
                         Services  Office  (VESO)  found  that  the  Office  of  Human  Resources  and 
                         Administration  (HR&A)  acquired  excess  services  to  support  VESO  operations;  that 
                         HR&A  funded  its  Interagency  Agreement  (IA)  with  OPM  for  VESO’s  website  which 
                         duplicated key components of existing HR&A and Veterans Benefits Administration 
                         employment  websites;  and  that  HR&A  awarded  a  $4.4  million  1‐year  contract  to 
                         acquire  human  resources  support  that  duplicated  VESO’s  internal  capabilities  and 
                         certain  functions  are  inherently  governmental  functions.    The  review  concluded 
                         that  at  least  $13.1  million  will  be  spent  through  FY  2015  on  excess  call  center 
                         capacity  unless  corrective  action  is  taken.  In  addition,  according  to  the  report, 
                         HRA&  has  little  assurance  that  VESO’s  acquisitions  are  justified,  appropriately 
                         targeted,  and  will  have  the  desired  impact  of  increasing  Veteran  employment 
                         unless internal controls are improved. 
                  2.	    The  draft  report  made  six  recommendations  for  HR&A  to  improve  its  acquisitions 
                         practices  by  assessing  program  needs  against  VA’s  existing  capacities  and 
                         capabilities,  as  well  as  establishing  metrics  to  measure  program  quality  and 
                         outcomes.    HR&A  concurs  with  all  six  recommendations  and  VESO  has  already 
                         begun  the  process  of  establishing  metrics  and  performance  standards  to  better 
                         measure  program  quality  and  outcomes.    Given  that  the  program  was  officially 
                         established  less  than  3  years  ago,  VESO  is  in  the  process  of  establishing  a  solid 
                         foundation  and  baseline  with  which  to  measure  program  effectiveness  and  return 
                         on  investment.  The  $4.4  million  human  resources  support  contract  cited  in  the 
                         report  was  ultimately  terminated.    Further  actions  related  to  that  contract  are 
                         being  processed  and  audited  by  the  Office  of  Acquisitions  Operations  (OAO)  to 
                         ensure  all  legal  guidelines  are  adhered  to.  I  believe  that  ultimately,  HR&A  is  likely 
                         to spend less than the projected $4.4 million associated with this acquisition. 




VA Office of Inspector General                                                                                                 14
                                                                          Review of VA’s Acquisitions Supporting VESO



                       


              Page 2 

              Draft Report, Review of Acquisitions Supporting the Veteran Employment Services Office 
              Project Number 2013‐00644‐R1‐0036 



              3.	         HR&A’s  comments  and  plans  in  response  to  the  recommendations  are  included  in 
                          the  attachment.   HR&A  will  undertake  more  frequent  and  more  rigorous  oversight 
                          and  review  of  VESO’s  acquisitions  to  ensure  the  organization  meets  its  mission  to 
                          support our Nation’s Veterans. 
              4.	         Thank  you  for  the  opportunity  to  review  and  respond  to  the  draft  report.    If  you 
                          have  any  questions,  please  contract  Dennis  May,  Acting  Director,  VESO  (006VE)  at 
                          (202) 461‐5063. 

                   

                      Rafael A. Torres 


                      Attachment 




                       




VA Office of Inspector General                                                                                               15
                                                   Review of VA’s Acquisitions Supporting VESO


                    Office of Human Resources & Administration (HR&A)

    Draft Report, Review of Acquisitions Supporting the Veteran Employment
    Services Office Project Number 2013-00644-R1-0036


    Recommendation 1: We recommend the Acting Assistant Secretary for
    Human Resources and Administration improve the development and
    management of ADVANCE-funded acquisitions by strengthening the
    Strategic Management Group’s process to fully assess program offices’
    procurement requests against VA’s existing internal capacities.

    HRA Response

    Concur

    The Office of Human Resources and Administration (HRA) concurs with this
    recommendation. It should also be noted that HRA has a prioritization process to
    avoid duplication of efforts within HRA, but we do not have the capability enterprise-
    wide to identify duplication across the Department. HRA will continue to work to
    strengthen and improve its program planning process which includes the following
    4 high-level phases:     

            1)      Requirements Coordination Review - Acquisition artifacts
            development (Performance Work Statements (PWS), Independent
            Government Cost Estimates (IGCE), Market Research, etc.);
            2)      Independent Validation and Verification (IV&V) - Review of each
            artifact for completeness and conformity to acquisition strategy, duplication
            of effort, programmatic best practices, feasibility, and cost;
            3)      Prioritization – Weighted, scaled scoring of each project to
            strategy/priority; and
            4)      Development of baseline program budget and acquisition strategy.

    In addition, HRA’s Strategic Management Group (SMG) has been specifically
    tasked by the Acting Assistant Secretary to collect and analyze all relevant
    information relating to duplication of efforts, i.e. procurement requests against
    existing internal capacities.

    Target Completion Date: October 1, 2013



    Recommendation 2: We recommend the Acting Assistant Secretary for
    Human Resources and Administration take immediate action to assess
    veteran demand for call center services and modify the terms of its
    interagency agreement with the Office of Personnel Management to reflect an

VA Office of Inspector General                                                              16
                                                  Review of VA’s Acquisitions Supporting VESO


    appropriate level of call center operations and related costs, including
    staffing resources.

    HRA Response

    Concur

    VESO contacted the Office of Personnel Management (OPM) to pursue the course
    of action outlined in this recommendation. OPM confirmed that an assessment of
    demand for call center services and a modification to the interagency agreement
    could be done, but likely at an additional cost to VA. Given this information, VESO
    will provide increased oversight for call center operations from now to the end of the
    period of performance. Moving forward, VESO has addressed this issue with the
    requirements for a new contract for these services. VESO will not utilize the
    interagency agreement format for this new contract. VESO will provide historical
    call and e-mail volume data in the solicitation so vendors can submit proposals with
    valid and accurate staffing levels.

    Target Completion Date: September 30, 2013

    Recommendation 3: We recommend the Acting Assistant Secretary for
    Human Resources and Administration modify the Veteran Employment
    Services Office’s interagency agreement with the Office of Personnel
    Management to require routine data reports on call centers’ performance that
    include call volume, length of calls, blocked calls, wait times, and the overall
    accuracy of information provided to callers.

    HRA Response

    Concur

    VESO contacted the Office of Personnel Management (OPM) to pursue the course
    of action outlined in this recommendation. OPM confirmed that a modification to
    the interagency agreement could be done, but likely at an additional cost to VA. In
    addition, and according to OPM, because of the amount of time involved with the
    modification, VA may not see this in effect until the end of the period of
    performance (September 2013). Given this information, VESO will provide
    increased oversight for call center operations from now to the end of the period of
    performance. Moving forward, VESO has addressed this issue with the
    requirements for the upcoming recompetition of this contract. As noted above,
    VESO will not utilize the interagency agreement format for this new contract. Also,
    detailed reporting standards regarding call center performance are included in the
    requirements developed for the next contract.

    Target Completion Date: October 1, 2013

    Recommendation 4: We recommend the Acting Assistant Secretary for
    Human Resources and Administration develop a process to independently

VA Office of Inspector General                                                            17
                                                 Review of VA’s Acquisitions Supporting VESO


    assess the performance of the Veteran Employment Services Office’s
    employment call centers by establishing metrics such as call volume, call
    wait times, hang-ups, and accuracy of information.

    HRA Response

    Concur

    VESO is currently addressing this issue by including detailed reporting standards
    regarding call center performance in the requirements developed for the next
    contract. These reporting standards include defined metrics that VESO created
    independently, which will allow the Acting Assistant Secretary for Human
    Resources and Administration (HRA) to assess the performance of the VESO
    coaching call centers. VESO is also addressing the issue by requiring call center
    metrics be accessible through an enhanced reporting platform that will be made
    available to VESO and HRA leadership. A process is being developed that will
    allow VESO and HRA to independently review and assess call center performance
    on a regularly scheduled basis using the metrics required in the next contract and
    the metrics that will be available in the enhanced reporting platform.

    Target Completion Date: October 1, 2013

    Recommendation 5: We recommend the Acting Assistant Secretary for
    Human Resources and Administration develop policy that prohibits the
    approval of modifications to interagency agreement terms that combine the
    costs and terms of distinct deliverables into one deliverable.

    HRA Response

    Concur

    HRA concurs with input from the Office of Acquisitions. Specifically, Paragraph H
    to Section 5 to VA PPM (2013-06) – Interagency Acquisitions (IAs), Guidance and
    Procedures states that “When establishing an interagency acquisition, a VA
    contracting official or program official is required to prepare the statement of work
    including specific requirements, tasks, deliverables, defined delivery dates, and
    performance metrics.” VA shall establish a requirements definition process that
    elaborates Performance Work Statement requirements to the lowest logical level of
    activities and deliverables. In this way, detailed requirements and deliverables can
    be provided in the Performance Work Statement.                Such properly defined
    requirements provide the detail necessary to monitor contract performance and
    changes in scope, including the potential cost impacts related to contract changes.
    VA shall also establish a change control process that requires a detailed review of
    any changes to contract language that may affect the cost, schedule and ability to
    monitor the contract. In this way, the government will be better assured of paying a
    fair and reasonable price for contract changes and of receiving fair consideration
    for reductions in contract scope.


VA Office of Inspector General                                                           18
                                                 Review of VA’s Acquisitions Supporting VESO


    Target Completion Date: September 1, 2013

    Recommendation 6: We recommend the Acting Assistant Secretary for
    Human Resources and Administration develop requirements to test and
    assess functions to be contracted to determine if these functions are
    inherently governmental as part of the acquisition planning process for all
    future contracts awarded to support the Veteran Employment Services
    Office’s operations and initiatives.

    HRA Response

    Concur

    VA routinely reviews FAR 7.5, in conjunction with OMB Circular A-76, to familiarize
    ourselves with functions that are inherently governmental services. VA is currently
    reviewing FY2013 acquisition packages for functions and activities that potentially
    violate rules against acquiring inherently governmental functions. Acquisition
    packages include templates for the development of requirements whereby the work
    required is compared against the list of inherently governmental functions, services
    closely related to inherently governmental functions, and critical functions as
    described in OFPP Policy Letter 11-01. For the FY2014 acquisition planning
    process, VA is expanding this review to include more specific checklists and
    language in Performance Work Statements that clearly place appropriate
    governmental direction and control over service contract requirements; while at the
    same time properly monitor contractor performance with objective performance
    measures. This combined direction, control and objective oversight will ensure that
    services acquired by the government will not include inherently governmental
    functions and will satisfy the government’s mission need.

    Target Completion Date: September 1, 2013 




VA Office of Inspector General                                                           19
                                             Review of VA’s Acquisitions Supporting VESO


Appendix E          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.

                      Acknowledgments	   Nick Dahl, Director
                                         Irene J. Barnett
                                         Benjamin Howe
                                         Jenna Lamy
                                         Jennifer Leonard
                                         James McCarthy




VA Office of Inspector General                                                       20
                             Review of Acquisitions Supporting the Veteran Employment Services Office


Appendix F          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget


                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                    21
